<html>
<title> - ANABOLIC STEROID CONTROL ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                  ANABOLIC STEROID CONTROL ACT OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3866

                               __________

                             MARCH 16, 2004

                               __________

                             Serial No. 71

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

92-567              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 16, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable John Sweeney, a Representative in Congress From the 
  State of New York
  Oral Testimony.................................................     4
  Prepared Statement.............................................     5
The Honorable Joseph Rannazzisi, Deputy Director of the Office of 
  Diversion Control, Drug Enforcement Administration, U.S. 
  Department of Justice
  Oral Testimony.................................................     6
  Prepared Statement.............................................     7
Mr. Ralph Hale, M.D., Chairman, United States Anti-Doping Agency
  Oral Testimony.................................................    10
  Prepared Statement.............................................    12
Mr. Robert Hazelton, former boxer
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from the Major League Baseball Players Association to 
  Senators Biden and Hatch.......................................    39
Letter from Dr. Michael D. Maves, M.D., MBA of the American 
  Medical Association to Representatives Sensenbrenner and 
  Conyers........................................................    41

 
                  ANABOLIC STEROID CONTROL ACT OF 2004

                              ----------                              


                        TUESDAY, MARCH 16, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2 p.m., in Room 
2141, Rayburn House Office Building, Hon. Howard Coble (Chair 
of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. The 
Subcommittee on Crime, Terrorism, and Homeland Security will 
conduct the first meeting on H.R. 3866, the ``Anabolic Steroid 
Control Act of 2004.''
    This hearing examines the dangers of the use of steroids 
for professional athletes as well as college, high school and 
even middle school athletes. Although steroid use was banned 
under the Anabolic Steroids Control Act of 1990, many 
substances have since been developed that have essentially the 
same effect on the body as anabolic steroids. These steroid 
precursors have been banned by the International Olympic 
Committee and other professional athletic associations, but 
remain legal to purchase in the United States. The Anabolic 
Steroid Control Act of 2004 will add these new drugs to the 
list of controlled substances and provide increased penalties 
for any individual who traffics in steroids within 1,000 feet 
of an athletic facility.
    Recently, the problem of steroid abuse has gotten a great 
deal of media attention. Two weeks ago, the Senate Commerce 
Committee conducted a hearing to highlight the problem of 
performance enhancing drugs in professional athletes and 
professional athletics. This Committee is concerned with the 
prevalence of steroids in professional sports as well as the 
adverse health effects these drugs have on adults and 
adolescents. There have been numerous studies citing side 
effects associated with steroid use. Some of the long-term 
consequences of steroid use include liver disorders, high blood 
pressure, extreme mood swings and severe acne.
    Other side effects found in men include male breast 
development, reduced sperm count and infertility. Women can 
experience the cessation of menstrual cycle, male patterned 
baldness, facial hair growth and deepening of the voice. Sadly, 
the use of these performance enhancing drugs is glamorized by 
professional athletics. The message that adolescents are 
receiving, I fear, is that the use of performance enhancing 
drugs is necessary to compete and should be used regardless of 
the adverse health effects. This message is not only received 
at the college and high school levels, but evidence suggests 
that middle school students have not become immune to the 
perils of steroid abuse. Adolescents are at risk for the side 
effects outlined above as well as premature skeletal maturation 
and accelerated puberty changes, which may result in stunted 
growth.
    The National Institute on Drug Abuse estimated in 2003 that 
1.4 percent of eighth graders, 1.7 percent of tenth graders and 
2.1 percent of twelfth graders had taken anabolic steroids at 
least once in their lives. Although this is a slight decrease 
from last year, use of steroids among adolescents has 
significantly increased since the early 1990's. This trend is 
alarming, but even more disturbing is that many of these 
precursor steroids are not yet illegal. This legislation will 
add these drugs to the controlled substance list, making it 
more difficult for adults and adolescents to obtain these 
harmful drugs.
    I want to thank the witnesses who were able to be here 
today and look forward to their testimony. I am pleased to 
recognize my friend from Virginia, the Ranking Member, Mr. 
Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I am pleased to join 
you in convening this hearing on H.R. 3866, ``Anabolic Steroid 
Control Act of 2004,'' and I note that am a co-sponsor of the 
bill. This legislation updates the ban on steroids to include 
the several steroid precursors that have been developed since 
the 1990 ban when steroids went into effect. These precursors 
have been shown to cause the same reaction to the body as 
anabolic steroids and are just as dangerous in terms of side 
effects and long-term damage potential. Currently, they are not 
illegal. They are widely used by athletes and others seeking to 
enhance muscle and body development. In addition to direct 
ingestion, these drugs are also showing up in over-the-counter 
nutrition and dietary supplements.
    Of course, the important concern driving the bill is the 
impact of these drugs and precursors on children. Some young 
athletes are using drugs with the belief that they will become 
great in their sport and gain money and fame. In addition to 
risk and disqualification from playing sports, they also risk 
all of the medical problems that you mentioned, even death. And 
mentioning death, Mr. Chairman, I can't avoid pointing out that 
a local funeral director from my district is sitting here in 
the audience. I don't know if he is looking for potential 
clients.
    Mr. Coble. He seems to be smiling approvingly.
    Mr. Scott. Many of these new drugs and precursors could 
legitimately be made available for prescriptions by physicians 
to legitimately treat conditions and many medical conditions.
    So Mr. Chairman, I am pleased to join you in the efforts to 
get these drugs out of the category of easy access to children 
and others unaware of their potential damaging effects and look 
into the laboratory to determine the legitimate beneficial 
uses. I look forward to the testimony of the witnesses on these 
issues and other issues that may come up.
    Mr. Coble. Thank you, Mr. Scott. We are pleased to have the 
gentleman from Florida, Mr. Keller, join us as well. And 
without objection, all opening statements of Members will be 
made a part of the record.
    Our first witness today is one of our colleagues. I will 
echo what Mr. Scott said. I, too am a cosponsor of the bill. 
Our first witness is one of our colleagues here in the House, 
Representative John Sweeney. Congressman Sweeney has served the 
20th district of New York since January 1999 and currently 
serves on the House Appropriations Committee, where he has been 
assigned to the Subcommittee on Transportation and Treasury, 
the Subcommittee on Commerce, Justice and State and the 
Subcommittee on Homeland Security.
    Representative Sweeney was also recently named to the 
Select Committee on Homeland Security. Congressman Sweeney is a 
native of Troy, New York where his father was President of the 
Local Shirtcutter's Union. After working his way through 
college, he received a Bachelor of Arts degree from Russell 
Sage College. The following year, he was appointed head of the 
Rensselaer County DWI prevention program and continued working 
while studying law and earned his law degree from Western New 
England School of Law.
    This has nothing to do with steroids, Mr. Sweeney, but your 
dad was the President of a Local Shirtcutter's Union. Does my 
memory serve me correctly that Arrow Shirts are made in New 
York?
    Mr. Sweeney. Arrow shirts were made in Troy, New York for 
many years.
    Mr. Coble. Our next witness is from the Drug Enforcement 
Administration, DEA. Mr. Joseph Rannazzisi is deputy director 
of the Office of Diversion Control for the DEA. He serves as an 
advisor to the chief of operations and DEA manager on all 
matters pertaining to the formulation, direction and 
coordination of worldwide programs associated with the 
diversion of legally controlled substances and listed 
chemicals. Deputy Director Rannazzisi began his career with the 
DEA in 1986 as a diversion investigator at Indianapolis. And he 
holds a degree of science and pharmacy from Butler University 
and a law degree from the Detroit College School of Law at 
Michigan State University.
    Our third witness is Doctor Ralph Hale who is chairman of 
the board of directors of the United States Anti-Doping agency 
and executive Vice President of the American College of 
Obstetricians and Gynecologists. He has served as vice 
president of the U.S. Olympic Committee from 1992 to 1996 and 
vice chair of the Sports Medicine Committee, as well as a 
member of the USOC/USSR Anti-Doping Commission. Dr. Hale was 
awarded his undergraduate from the University of Illinois, 
Urbana and his medical degree from the University of Illinois 
at Chicago.
    Our final witness I will introduce in absentia because he 
is en route. I think he made an incorrect turn, but he is on 
his way. But our final witness will be not unknown to many of 
you sports enthusiasts. Mr. Robert Hazelton is from Howard 
Lake, Minnesota. Mr. Hazelton is a former heavyweight boxer who 
knows firsthand about the dangers of steroid use. Mr. Hazelton 
began his boxing career in 1969, a time when many people were 
not aware of the dangers of steroids. Mr. Hazelton has learned 
these dangers and has traveled around the country to share his 
story with others. It is good to have all of you with us and we 
will welcome Mr. Hazelton when he does arrive, which should be 
momentarily.
    Gentlemen, as we have previously asked you, and I want to 
reiterate, if you would confine your statements to 5 minutes, 
we would be appreciative of that and that will enable us to get 
through and question you in some detail. Your 5-minute red 
light warning is your notification that your time has elapsed. 
But good to have all of you with us. Mr. Sweeney, we will start 
with you.

 STATEMENT OF THE HONORABLE JOHN SWEENEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Sweeney. Mr. Chairman, I thank you very much and thank 
you, Ranking Member Scott, for having the foresight and the 
diligence to go forward with this hearing. And Mr. Keller, it 
is always good to see you, and I thank you very much for the 
opportunity.
    Mr. Chairman, I submit my statement for the record, but I 
have to tell you I feel like a wanderer who is emerging from 
the deep dark throes of a wooded area having for 4 years now 
talked about this issue. And with all of the very important 
priorities that we face here with all the important 
discussions, it is difficult to get people to focus on this 
particular issue. Your hearing will shed the light of day on 
what I think is a very important substantial debate in this 
Nation and in this Congress over an issue I think affects us 
all in ways that we really hadn't considered in the past.
    As you know, in 1994, Congress enacted DSHEA, which made 
illegal anabolic steroids. And since that time, a lot of 
science has evolved and developed and some substantive data has 
evolved and developed that shows us that unfortunately, some 
manufacturers, driven by their desire for profit and desires to 
do a number of things and some athletes and individuals tried 
to find ways to skirt that 1994 exclusion of these products. 
And the industry can and will, we have learned, make minor 
chemical changes to a product after it is deemed illegal, 
making such negligible changes that currently enable a 
manufacturer to reintroduce a different product into the market 
place as a legal substance.
    We have made huge progress on the issue. In fact, half a 
dozen of the prior steroid precursor and designer steroid 
manufacturers voluntarily last year agreed they would stop 
selling these products over the counter and stop manufacturing 
them. This bill, H.R. 3866, recognizes that we need to find a 
way to make it easier for our colleagues at the Drug 
Enforcement Agency to outlaw similar steroid precursors in the 
future and to give them the flexibility to enforce the law and 
the intent of the law passed in 1994.
    You may ask why a proprietor, why someone involved in 
homeland security or why someone from Troy, New York got 
involved in this process. And more than talk about the 
substance of the law, I want to talk about the human elements 
of this. Mr. Chairman, about 4 years ago, I had the 
opportunity, and on occasion, worked out with my then 15, 16 
year old son, who is an avid sports fan, who was an avid 
athlete in baseball, football, all the sports you would expect 
an average American kid to be involved in. And he mentioned to 
me that a number of his friends in the gym were talking about 
and/or using an anabolic precursor that goes by the tag line 
Andro. And he asked me what I thought about that and he asked 
me if I thought it would make him perform better, make him 
faster and stronger; what I thought about the use of that.
    I said to him, John, as a natural response, I think 
anything you ingest in your body, you better check out first 
before you really do some damage that you don't intend. He 
said, dad, how bad can this be? They are selling it over the 
counter at GNC and selling it over the counter at Wal-Mart. The 
Government has had to check this out. You folks have had to 
check this out. This has to be good for you. That started me on 
a journey through the U.S. Olympic facilities in Lake Placid, 
which is in my district, and through a variety of other sports 
entities in this Nation researching the facts and what was 
really involved in the steroid precursor phenomenon.
    And what I found was sales quadrupled after Mark Maguire 
hit 70 home runs and took Roger Maris off the record books and 
acknowledged the use of Andro as a means to develop fitness and 
strength. I found that as you had mentioned in your opening 
statement, there were a number of very serious and debilitating 
side effects to adults. And now, it wasn't much of a leap for a 
parent like myself to move to the next conclusion, that if it 
has that impact on a developed human body, what the heck does 
it do to young children?
    And with that and cutting quickly to the other end of it, I 
introduced legislation 3 years ago that now is embodied in the 
Anabolic Steroid Control Act that sits before you today. 
Fortunately, the next year, another good colleague of ours, Tom 
Osborne, the former coach of the Nebraska Cornhuskers, came to 
Congress and immediately, within the first month, got on our 
bill and became a strong proponent of the bill. And I am happy 
to say that the Judiciary Committee, with the Chairman, Mr. 
Sensenbrenner and the Ranking Member, Mr. Conyers' lead on it, 
says this bill is going to go forward in this Committee 
following the hearings and the due diligence that you have to 
perform.
    I have to tell you as a parent in this country, I have to 
say thank you very much. This Committee is the first Committee 
to step forward and provide the kind of leadership that we have 
needed. And we have made great progress. There is a lot more 
that needs to be happening in questions and answers that maybe 
I can get into that a little bit with you. And I thank you for 
the opportunity.
    [The prepared statement of Mr. Sweeney follows:]

 Prepared Statement of the Honorable John E. Sweeney, a Representative 
                 in Congress From the State of New York

    Chairman Coble and Ranking Member Scott, thank you for holding this 
important hearing. It is an honor to be here today to discuss a bill I 
have had the pleasure of introducing with Chairman Sensenbrenner and 
Ranking Member Conyers, H.R. 3866, The Anabolic Steroid Control Act. My 
colleagues, Congressman Osborne and Congressman Berman have also joined 
us in this bipartisan effort to project our children from the dangers 
of steroid precursors.
    I am happy to provide some background on this legislation, the 
vital need for its passage, and explain why it is an issue of such 
personal importance to me.
    First, some brief history. The Dietary Supplement Health and 
Education Act (DSHEA) made steroids illegal in 1994. Since that time, 
new products called steroid precursors have become popular. These 
substances, as the U.S. Anti-Doping Agency will explain today, are the 
``functional equivalent of steroids.''
    Technology and science has advanced since the early 1990s. It is 
now clear steroid precursors pose the same dangers as other steroids 
and should be illegal. As a result, the Anabolic Steroid Control Act 
specifically lists dozens of steroid precursors, categorizing them as 
Schedule III substances.
    Unfortunately, experience has taught us that a profit-driven 
industry can, and will, make minor chemical changes to a product after 
it is deemed illegal. Making such negligible changes currently enables 
a manufacturer to reintroduce the product into the marketplace as a 
legal substance.
    Mr. Chairman, H.R. 3866 recognizes this challenge and makes it 
easier for the Drug Enforcement Agency to outlaw similar steroid 
precursors in the future. Changing one molecular of a performance-
enhancer will no longer undo its illegal status. This legislation will 
remove the need for the repetitive and costly tests the federal 
government currently uses to remove these dangerous substances from 
store shelves.
    This legislation has gained momentum recently as performance 
enhancing drugs continue to show up in the news, specifically with the 
BALCO scandal. The lines of fair play are blurred by the prevalence of 
steroid precursors and designer steroids. These substances are the 
equivalent of illegal steroids and should be treated as such.
    As athletes have become more creative; turning to substances such 
as andro and its muscle-building cousins, our children have become more 
susceptible to the allure of performance-enhancing substances. While 
the integrity of sports is significant, the use of steroids in sports 
would not be of such profound concern if it did not impact children so 
drastically.
    In 1998 Mark McGwire admitted to using andro after hitting 70 home 
runs and breaking Roger Maris' record. After his admission, sales of 
andro quadrupled, with teenagers making up a large portion of those 
sales.
    The battle against the reckless availability of performance 
enhancing substances became personal for me after my 16-year-old son, 
an avid baseball player, asked me about the supplements he had seen in 
the school locker room. My son assumed that since these substances were 
easily available over-the-counter they must be safe. In reality, 
steroid precursors have a wide range of side-effects, including stunted 
growth, increased risk of heart attack and cancer, elevated blood 
pressure, liver damage, serious changes to sexual organs and 
depression. I was horrified to think children were so desperate to get 
an athletic edge they would unknowingly damage their developing bodies.
    Mr. Chairman, nearly three-quarters of kids say they want to 
imitate professional athletes. At the same time, the majority of sports 
fans believe steroids played a role in recent sports accomplishments. 
What type of message does this send our children?
    The National Institute on Drug Abuse estimates that almost 3% of 
junior high students have taken anabolic steroids. According to the 
Department of Health and Human Services, 1 out of every 40 high-school 
seniors admitted to using andro in the past year.
    It is time for Congressional action. I'm glad I have been able to 
work closely with my colleagues to proactively address the dangers of 
steroid precursors. It is our responsibility to address the safety 
concerns of these substances and protect our young athletes from harm.
    Keeping our children safe is far more important than restoring 
integrity to the sports world. But, with the Anabolic Steroid Control 
Act, we can accomplish both.
    In conclusion, I would like to recognize our friends in the other 
body, Senator Hatch and Senator Biden, who are working in tandem with 
us on this legislation. It is an honor to have such skilled officials 
working together on this issue. I hope their version of the Anabolic 
Steroid Control Act, S. 1780, will see action soon.
    Our legislation is supported by the DEA, the FDA and the White 
House. Endorsements have also come from USADA, CASPER, the NBA, the NFL 
and, although their own policy of steroid testing needs improvement--
the MLB.
    Mr. Chairman, thank you for your interest in this topic. I hope we 
can continue to work together on this important issue.

    Mr. Coble. Mr. Rannazzisi.

 STATEMENT OF THE HONORABLE JOSEPH RANNAZZISI, DEPUTY DIRECTOR 
     OF THE OFFICE OF DIVERSION CONTROL, DRUG ENFORCEMENT 
           ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Rannazzisi. Thank you, sir. Chairman Coble, Ranking 
Member Scott, Congressman and distinguished Members of the 
Subcommittee, it is an honor to appear before you today for the 
first time in my capacity as deputy director for the Office of 
Diversion Control in the Drug Enforcement Administration. The 
issue of steroid abuse has recently received national attention 
in the context of professional sports. But the importance of 
stopping steroid abuse extends far beyond preserving the 
integrity of our national past time. The importance is to give 
our children a healthy future. Abusive anabolic steroids among 
young people has reached dangerous levels and puts our kids at 
increased risk of heart disease, liver cancer, depression, 
stunted growth, eating disorders, not to mention an increased 
episode of hostility and aggression. These steroids pose real 
dangers. We cannot afford to jeopardize the health of our young 
people lured by the temptation of chemical shortcuts to greater 
athletic prowess or more muscular physiques.
    Unfortunately, the minimal research and short testing time 
required for the continuous rapid introduction of new steroids 
into the open market makes attempts at monitoring and 
scheduling these new substances nearly impossible for law 
enforcement. However, the legislation sponsored by Chairman 
Sensenbrenner will directly declare certain steroids and 
steroid precursors as dangerous drugs and allow us to more 
quickly and effectively classify new steroids as controlled 
substances. In short, it gives DEA two significant new tools to 
help us shut down the illegal steroid trade. First, it gives us 
a clear authority to conduct law enforcement operations against 
the trafficking steroid precursors as well as designer steroids 
like THG.
    Until now, these steroids have been able to masquerade as 
harmless dietary supplements. This bill will finally call the 
steroids what they are, dangerous drugs. Second, this 
legislation removes an enormous legal stumbling block to taking 
these steroids off the shelf by eliminating the requirement to 
prove muscle growth in order to schedule a new steroid. Despite 
years of testing costing hundreds of thousands of dollars, we 
have not yet been able to schedule a single steroid under these 
requirements. This legislation will correct the problem.
    Steroid manufacturers will need to register with DEA and 
strict accountability will be required for the sale, 
prescription and dispensing of approved steroids. These 
products will no longer be legally purchased through ads in 
fitness magazines or over the Internet, but only pursuant to a 
valid prescription obtained from a licensed medical 
practitioner. This bill will definitely do the job and I 
encourage Members to support it. Mr. Chairman, thank you for 
your recognition of these important issues and this opportunity 
to testify. I will be happy to answer any questions.
    Mr. Coble. Mr. Deputy director, I think you have set an all 
time record by beating the 5-minute mark.
    [The prepared statement of Mr. Rannazzisi follows:]

               Prepared Statement of Joseph T. Rannazzisi

    Chairman Coble, Congressman Scott, and distinguished members of the 
Subcommittee, I appreciate your invitation to testify today on the 
importance of fighting the growing abuse of steroids in this country.

                                OVERVIEW

    The issue of steroid trafficking and abuse has recently received 
national attention in the context of professional sports. But the 
importance of stopping steroid abuse extends far beyond our national 
pastimes; the importance is to give our children a healthy future. 
Abuse of anabolic steroids among young Americans has reached dangerous 
levels, and it puts our kids at increased risk of heart disease, liver 
cancer, depression, stunted growth, and eating disorders, not to 
mention increased episodes of hostility and aggression.
    Anabolic androgenic steroids are synthetic chemicals based on the 
structure and pharmacology of testosterone originally developed in the 
1930s to help rebuild body tissue and prevent breakdown of tissue in 
individuals suffering from debilitating diseases. They promote the 
growth of skeletal muscle and the development of male sexual 
characteristics, in addition to other effects. Their popularity with 
athletes exists due to the muscle development and physical performance 
enhancements they provide. Unfortunately, this popularity has filtered 
down to our nation's teenagers and young adults, who are lured by easy 
shortcuts to greater athletic prowess and more muscular physiques.

         THE DANGEROUS IMPACT OF STEROIDS ON TEENS AND ATHLETES

    Steroid use among young Americans has already passed the danger 
zone. The 2003 Monitoring the Future Study conducted by the University 
of Michigan indicates that approximately 3.5 percent of American high 
school students have used illegal anabolic steroids at least once by 
grade 12. In that same study, an incredible 45 percent of all 12th 
graders did not believe taking steroids posed a great risk.
    This report came on the heels of earlier studies, including the 
National Institute of Drug Abuse (NIDA) report of 1999, which stated 
that more than a half million 8th and 10th grade students where using 
anabolic steroids. A Youth Risk Behavior Surveillance Survey conducted 
by The Centers for Disease Control and Prevention (CDC) indicated that 
in 2001, five percent of all high school students reported use of 
steroids pills/injections without a physician prescription during their 
lifetimes.
    Compounding the dangerous perception among young people that 
steroid use is harmless is the high-profile use of steroids among 
professional athletes. And because sports figures are prominent role 
models for our younger citizens, the President has focused on doping 
and cheating in sports.

        ``To help children make the right choices, they need good 
        examples. Athletics play such an important role in our society, 
        but, unfortunately, some in professional sports are not setting 
        much of an example. The use of performance-enhancing drugs like 
        steroids in baseball, football, and other sports is dangerous, 
        and it sends the wrong message--that there are shortcuts to 
        accomplishment, and that performance is more important than 
        character. So tonight I call on team owners, union 
        representatives, coaches, and players to take the lead, to send 
        the right signal, to get tough, and to get rid of steroids 
        now.''

      (President George W. Bush, 2004 State of the Union Address)

    The negative effects of long term anabolic steroid use are well 
documented. They include damage to the liver, kidney, heart, and sexual 
organs. Their use can also prevent children from reaching their full 
height. Moreover, abuse often elevates cholesterol and causes 
cardiovascular weakening, combined with hypertension. And because 
steroids are commonly injected, needle sharing can transmit blood born 
diseases such as HIV and AIDS. Steroids use can also cause uncontrolled 
outbursts of anger, frustration or combativeness resulting in wanton 
acts of violence. These outbursts are commonly referred to as ``roid 
rage.''

                  THE NEED FOR ADDITIONAL LEGISLATION

    Despite these clear health risks, the rapid evolution of new 
steroids has made it difficult for law enforcement to keep up, because 
each specific chemical formulation is required to be considered as a 
separate drug. In its initial attempt to regulate steroid abuse, 
Congress passed the Anabolic Steroid Control Act of 1990 (ASCA), which 
scheduled anabolic steroids as a class of drugs, and specifically 
listed 27 as controlled substances. In addition, Congress anticipated 
that future steroids would ultimately infiltrate the anabolic steroid 
black-market, and crafted a four-part definition that the DEA could use 
to administratively classify new steroids as Schedule III anabolic 
steroids. All four of the following questions needed to be answered:

        <bullet>  Is the steroid chemically related to testosterone?

        <bullet>  Is the steroid pharmacologically related to 
        testosterone?

        <bullet>  Is the steroid an estrogens, progestin, and 
        corticosteroid?

        <bullet>  Does the steroid promote muscle growth?

    The four-part test was first considered by the DEA in 1999, when it 
determined that the substance androstenedione met the first three 
criteria required under the 1990 legislation, but has been unable to 
make a finding regarding the fourth criteria, due to a lack of accepted 
methodology available to validate the final requirement for muscle 
growth. This meant that Congress had provided the DEA with the 
blueprint for scheduling steroids, but the scientific community had yet 
to develop a study that accurately quantified the promotion of muscle 
growth. This major stumbling block provided a legal loophole for 
traffickers of anabolic steroids to continue marketing their dangerous 
drugs as dietary supplements.
    Consequently, the DEA has had to initiate and fund studies to 
develop animal models that could quantify the effects of steroids on 
muscle. For example, the DEA is currently co-sponsoring a three year 
study in New York City using the guinea pig to evaluate the effects of 
steroids on skeletal muscle growth. Other participating agencies 
include the Office of National Drug Control Policy (ONDCP), the 
National Institute on Drug Abuse (NIDA), and several branches of the 
National Institutes of Health. The first phase has been completed and 
the second phase is scheduled for completion in September 2004. This 
model will then be used to evaluate the effects of skeletal muscular 
growth from two substances: testosterone precursors and nandrolone 
precursors. Both of these steroids are now openly sold in dietary 
supplement products. The DEA is also funding a study in Seattle, 
Washington, using an immature rat as a model. In conjunction with the 
New York study, the development of skeletal muscular growth using 
steroids currently sold in dietary supplements is being examined. We 
anticipate this study will be completed by October 2004.
    These two studies have already proven both costly and time 
consuming. By contrast, the amount of research and time required to 
introduce a new steroid into the dietary supplement market is minimal. 
The logical result has been an increase in the number of steroids 
available in dietary supplement products. Again, the ongoing 
requirement that the DEA must first scientifically validate muscle 
growth is a genuine impediment to effective regulatory oversight of 
these steroids. This means they continue to enter the dietary 
supplement market and continue to be legally purchased by America's 
youth, athletes, bodybuilders and other ill informed individuals who 
abuse anabolic steroids.

                               H.R. 3866

    To counter this trafficking trend, the DEA believes the fourth 
requirement of the ASCA, the quantification of muscle growth, be 
dropped from the definition for anabolic steroids. This is a 
cornerstone of the legislation sponsored by Chairman Sensenbrenner, 
H.R. 3866. The legislation also specifically adds several steroids & 
precursors to the list of controlled substances considered anabolic 
steroids. In short, the bill will directly declare certain steroids and 
steroid precursors as dangerous drugs, and give us new tools to more 
quickly and effectively classify new steroids as controlled substances.
    For example, one listed steroid precursor is androstenedione. Last 
week, Department of Health and Human Services Secretary Tommy G. 
Thompson announced that the Food and Drug Administration (FDA) 
concluded there is inadequate information to establish that a dietary 
supplement containing androstenedione can reasonably be expected to be 
safe. Therefore, the FDA sent 23 warning letters to companies that 
manufacture, market, and distribute dietary supplement products 
containing androstenedione informing them that failure to cease 
distribution of these products could result in enforcement action.
    The legislation this subcommittee is considering gives DEA two 
important tools for shutting down the illegal steroid trade:
    First, it would give us clear authority to conduct law enforcement 
operations against the trafficking of steroid precursors, as well as 
other steroids, including the designer steroid, THG. Until now, these 
steroids have masqueraded as harmless dietary supplements. This bill 
would finally call these steroids what they are--dangerous drugs.
    Second, and as noted above, this legislation would remove an 
enormous legal stumbling block to taking these steroids off the shelf 
by eliminating the requirement to prove muscle growth to schedule a new 
steroid. Despite years of testing costing hundreds of thousands of 
dollars, we have not yet been able to schedule a single steroid under 
that requirement.

           TRAFFICKING OF ILLEGAL STEROIDS INTO OUR COUNTRY 
                     AND DEA ENFORCEMENT OPERATIONS

    Anabolic steroids are not controlled in most countries. This 
translates into a virtually unlimited supply of steroids world-wide.
    Outside our borders, anabolic steroids are frequently smuggled into 
the United States from Mexico by U.S. citizens who travel there to 
purchase them without a prescription. In addition, criminal groups of 
Russian, Romanian, and Greek nationals are significant traffickers of 
steroids, and are responsible for substantial shipments of steroids 
entering the United States. Domestically, illicit steroids are often 
sold at gymnasiums and bodybuilding/weightlifting competitions, where 
sellers obtained them through theft and fraudulent prescriptions.
    Overall, the DEA has increased its enforcement effort of anabolic 
steroids. In 2001, we initiated 52 steroid cases. Last year, 87 
investigations were launched. In one example, in October 2002 the DEA 
arrested eight individuals involved in the largest ketamine 
manufacturing and trafficking organization in North America. Included 
in the arrests were the owner of Ttokkyo Laboratorios and their sole 
Mexican distributor arrested in Panama. At the time, Ttokkyo was the 
largest manufacturer of anabolic steroids in Mexico and supplier to 
major U.S. distributors. This international ketamine and anabolic 
steroid trafficking organization in Mexico smuggled thousands of vials 
of ketamine and steroids to California, New York, New Jersey, and 
Florida. Among the Schedule III steroids being smuggled were 
methandienone, nandrolone, testerone, and oxandrolone.

                               CONCLUSION

    The DEA has one mission: to protect the public from dangerous 
drugs. However, the current law regarding steroids causes regulatory 
delay, especially with respect to steroids that we know are hormonally, 
chemically, or pharmacologically related to testosterone. Because DEA 
authority extends only to controlled substances, steroids that are not 
classified as controlled substances continue to fall outside our 
jurisdiction.
    H.R. 3866 will correct this problem. Manufacturers of steroids 
designated or scheduled as controlled substances will need to register 
with the DEA and strict accountability will be required for the sale, 
prescription, and dispensing of steroids. These products will no longer 
be legally purchased through ads in fitness magazines or over the 
Internet, but only pursuant to a prescription obtained by a licensed 
medical practitioner.
    Mr. Chairman, thank you for your recognition of these important 
issues and the opportunity to testify here today. I will be happy to 
answer any questions you may have.

    Mr. Coble. Dr. Hale.

  STATEMENT OF RALPH HALE, M.D., CHAIRMAN, UNITED STATES ANTI-
                         DOPING AGENCY

    Dr. Hale. Thank you, Mr. Chairman and Members of the 
Committee, good afternoon. I am currently the chairman of the 
board of directors of the U.S. Anti-Doping Agency. I could make 
it shorter because the two preceding speakers have already said 
everything that I had planned on saying, but I will say a 
couple of extra things. As you know, the U.S. Anti-Doping 
Agency has recently received a lot of media attention based on 
the designer steroid THG. We are very concerned about that. But 
I want to emphasize to the Committee we are equally concerned 
about all classes of anabolic substances readily available on 
the shelves of the supermarkets and nutrition stores of the 
United States.
    Mr. Chairman, you have adequately presented the perils of 
anabolic steroid use. They all originated, we think, a lot of 
the time with the East Germans, and I am not going to go 
through those again. But despite these well-known health 
consequences for approximately the last 8 years, American 
consumers have been able to walk in their corner nutrition 
stores and buy products containing Androstenedione.
    Mr. Sweeney pointed out about Mark Maguire and the other 
athletes, and I think that has been a tremendous example to the 
youth of America. If you want to succeed, you have to do it by 
use of chemicals. Last Thursday, the FDA took action against 
Androstenedione and acknowledged there is serious and a 
substantial concern about the safety of the products. We fully 
support this action and we are very appreciative of the FDA 
finally moving in this regard. We hope they will continue to 
move forward in the steroid precursor area as well. But I think 
Androstenedione also makes it clear that there needs to be more 
and better legislation as presented in bill 3866.
    Some unscrupulous manufacturers have already made minor 
chemicals changes. They changed Androstenedione to 
Androstenediol, a simple chemical change which takes place in 
the body. What takes place in the body is simply the cleaning 
of the OL, the alcohol group chemically, and it becomes 
Androstenedione again, and it has the same effect.
    So legislative action is needed to discourage this 
continued introduction of many steroids and steroid precursors. 
I believe that the whole concerns of all American consumers who 
do not fully understand the impact of these steroid precursors 
and what happens to them and especially our young adolescents. 
The story that Mr. Sweeney just told about his son is not rare. 
It is probably more common than most people understand.
    I have a son who teaches in high school. He tells me that 
his students can easily go anywhere they want and get steroid 
precursors in the various nutrition stores and the various 
markets and the various areas around, and yet most of them 
think that because it is on the shelf it is safe. They believe 
that it has been approved. They don't understand the other 
alternatives. You can go to the Internet. And I have with me 
what we just took off the Internet today, four advertisements 
for quote, ``hard to obtain pharmaceutical legal steroids.'' 
and they start out by saying, and I will read one of them, you 
can get Boldenone, known as Equipoise. It is the active 
ingredient in the anabolic steroid. Many of these 
advertisements are available not only to us but to people all 
over the world.
    For Olympic athletes where we spend a lot of our time and 
effort, they know how to avoid these products. They stay away 
from anything they know would give them a failing doping test. 
However, they also know that the IOC found in 624 dietary 
supplements, 41 percent of them carried a steroid precursor or 
banned substance. That puts our athletes as well as our 
children at risk. There is no credible argument to the over the 
counter availability of products containing steroid precursors.
    The time has come to stop this proliferation. I really do 
appreciate the Committee's attention to the problem as well as 
the actions of numerous senators, Senator Sweeney, Senator 
Sensenbrenner--Congressman Sensenbrenner, Congressman Sweeney, 
Congressman Osborne.
    Mr. Coble, you as an endorser, Mr. Scott, Mr. Keller, we 
really do appreciate the actions you have done as well as the 
fellow senators. And we hope and believe that these bills are 
the appropriate solution to the steroid precursor problem in 
the United States today, and we urge your full support for this 
bill. Thank you very much for the opportunity for USDA to come 
and to talk to you. The U.S. Anti-Doping Agency is available at 
any time that you need to call upon us for anything.
    Mr. Coble. Thank you Dr. Hale.
    [The prepared statement of Dr. Hale follows:]

                Prepared Statement of Dr. Ralph W. Hale

    Mr. Chairman, members of the committee, good morning, my name is 
Dr. Ralph Hale. Thank you for the opportunity to testify regarding this 
important health issue. Today, I am here as the Chairman of the Board 
of Directors of the United States Anti-Doping Agency. I am also a 
physician who has been practicing medicine for more than 40 years. 
USADA has been recognized by Congress as the independent, national 
anti-doping agency for Olympic and Paralympic sport in the United 
States. Our mission is to protect and preserve the health of athletes, 
the integrity of competition, and the well-being of sport through the 
elimination of doping.
    Recently USADA has received increased media attention for its role 
in the investigation into the existence and use by elite athletes of 
the designer steroid, THG. Designer steroids are an important concern 
for USADA. However, USADA is equally concerned about a class of 
anabolic substances that are readily available in the United States on 
the shelves of supermarkets and nutrition stores, as well available for 
order on thousands of internet sites. These products, marketed and sold 
as allegedly ``safe'' dietary supplements, contain substances, such as 
androstenedione and norandrostenedione and are one chemical step away 
from anabolic steroids. Once ingested these products are converted 
within the body into anabolic steroids. The availability of these 
products is a significant public health issue that transcends sport and 
places American consumers at risk.
    The perils of anabolic steroid use are well known. In Olympic 
sport, the most notable, systematic state-supported program of doping 
with anabolic steroids was conducted by the East Germans from 1974 
until the Berlin Wall fell. One of the anabolic substances developed by 
the East Germans as part of their doping program was androstenedione. 
In the body, androstenedione metabolizes into the anabolic steroid, 
testosterone. The documented side effects of the East German steroid 
program, particularly for women athletes, were tragic. These side 
effects include damage to the liver and reproductive system, 
susceptibility to cancers, and permanent masculinization of women. It 
is also well known that men who abuse steroids and steroid precursors 
risk serious health consequences including gynecomastia, baldness, 
shrunken testicles, infertility and susceptibility to aggressive 
behavior or rage. For adolescents who use steroids the side effects can 
include all of the above, as well as a strong likelihood that natural 
growth will be arrested or otherwise detrimentally affected.
    Despite all of these well-known health consequences, for 
approximately the last eight years, American consumers have been able 
to walk into their corner nutrition store and buy products containing 
androstenedione. In 1998, after certain popular professional athletes 
acknowledged using androstenedione, sales of these supplements in the 
United States, particularly among teenagers, dramatically increased. 
The popular demand for androstenedione gave birth to an entire 
industry. Now the nutrition store shelves, and the internet, are 
flooded with products containing various steroid precursors. For 
example, 19-norandrostenedione, which metabolizes in the body into the 
steroid nandrolone, another controlled substance, is present in 
hundreds of over-the-counter products.
    Last Thursday, the Food and Drug Administration took action against 
androstenedione and acknowledged that there is a ``serious and 
substantial concern'' about the safety of products containing 
androstenedione. USADA fully supports this important action and 
encourages the FDA to immediately take action against the remaining 
steroid precursor products on the market. Currently the introduction of 
these products is governed by the Dietary Supplement Health and 
Education Act. Under DSHEA a supplement manufacturer is not required to 
prove to the government that its precursor product is safe prior to 
putting it on the shelf. Instead, DSHEA places the burden on the 
government to take action against unsafe products after they reach the 
shelves.
    The androstenedione example makes clear, that by the time the 
agencies are able to take action against a specific steroid precursor; 
unscrupulous manufacturers will already have made minor chemical 
changes to the product and reintroduced it into the marketplace. For 
example, while the FDA sent letters to 23 companies selling products 
containing androstenedione, last week's action does not yet reach the 
companies that are now selling the more popular next-generation 
androstenedione products such as 1-AD and 4-Androstenediol. While we 
hope the FDA will promptly address those other products, legislative 
action needs to be taken to discourage the continued introduction of 
new steroid precursor products.
    Significantly, steroid precursor manufacturers fully exploit the 
protection offered by DSHEA and actively tout precursors products as 
``natural'' and ``legal'' in order to raise the false implication that 
they offer a safe alternative to controlled anabolic steroids. At the 
same time, the marketers of these products glorify the muscle-building 
qualities of these substances and reinforce the association between 
these products and those very same controlled anabolic steroids. These 
products are marketed under names that reinforce their connection to 
anabolic steroids, including ``Cycloroid,'' ``Masterbolan,'' ``Anabol-
X,'' ``Paradrol,'' and ``Animal Stak.'' These products are advertised 
as equal to or better than the ``real steroids'' and promise the user 
huge gains in muscle mass.
    While I believe these products raise a health concern for all 
American consumers who are duped into taking them, I am particularly 
concerned about the susceptibility of adolescents to the advertising 
message of steroid precursors. In a society where high school athletes 
can sign multi-million dollar endorsement contracts, we cannot expect 
teenagers to ignore advertisements claiming that these products are 
``safe alternatives'' to steroids and will make them ``ripped,'' 
``huge,'' improve their athletic performance and give them the body of 
their dreams. The manufacturers certainly have no motivation to reveal 
the serious health consequences associated with their products to the 
adolescents who are buying them, and unfortunately, there is no law 
requiring disclosure of those health consequences.
    For Olympic athletes, who know to avoid these products, there 
remains another concern. In increasing numbers, athletes are failing 
doping tests after taking mislabeled dietary supplements. Studies have 
shown that an alarmingly high percentage of dietary supplements contain 
doping substances that are not disclosed on the label. For example, a 
recent study of 624 dietary supplements by the International Olympic 
Committee found that 41% of the products from American companies 
contained a steroid precursor or banned substance not disclosed on the 
label.
    USADA believes that the current effectively unregulated 
availability of products containing steroid precursors in the United 
States is a health crisis that affects not just elite athletes, but 
every American teenager who dreams of athletic success, and every 
consumer who takes one of these products without being informed of the 
risks. Additionally, because of the risk of contamination, American 
consumers who believe they are taking perfectly safe nutritional 
products may unknowingly be ingesting steroid precursors.
    There is simply no credible argument supporting the over-the-
counter availability of products containing steroid precursors. The 
time has come to put a stop to the proliferation of these dangerous 
products. I appreciate this Committee's attention to this problem, as 
well as the actions of numerous Senators and Congressmen who have 
joined USADA in the fight to remove these dangerous products from 
America's stores. On behalf of USADA, I would like to specifically 
thank Congressmen Sensenbrenner, Conyers, Sweeney, Osborne, and Berman 
for introducing the Anabolic Steroid Control Act of 2004. I would also 
like to thank Senators Biden, Hatch, Grassley and Harkin for their 
attention to this matter and commend their introduction of the Senate 
version of this bill.
    These bills amend the Controlled Substances Act by scheduling the 
substances I have discussed here today and by making it easier to 
schedule any anabolic steroid precursors introduced by manufacturers in 
the future. USADA believes that these bills are the appropriate 
solution to the steroid precursor problem. We urge full support for 
these bills and we are hopeful that they will be rapidly passed by 
Congress.
    I would like to thank this Committee for its time and its interest 
in this important public health issue and for inviting me to share my 
thoughts on the dangers posed to American consumers by products 
containing steroid precursors. Thank you.

    Mr. Coble. Dr. Hale, some on this side of the Hill may 
conclude that you demoted Sensenbrenner and Sweeney when you 
call them Senators. But I will say that with tongue in cheek. 
Mr. Hazelton, let me repeat your introduction to make sure I 
have it correct. Mr. Robert Hazelton is from Howard Lake, MN. 
Former heavyweight boxer who knows firsthand about the dangers 
of steroid use. Mr. Hazelton began his boxing career in 1969, a 
time when many people were not aware of the dangers of 
steroids. Mr. Hazelton has learned those lessons and has 
traveled widely around this country to share his story with 
others.
    It is good to have you with us, Mr. Hazelton, and you will 
be the wrap-up witness. Mr. Hazelton, if you could, confine 
your comments to as close to 5 minutes as you can. When that 
red light illuminates in your eye, you will know you are on 
thin ice. Good to have you with us.

           STATEMENT OF ROBERT HAZELTON, FORMER BOXER

    Mr. Hazelton. First, I would like to start, God bless that 
I am here today, our country.
    Mr. Coble. Could you pull that mike a little closer to you.
    Mr. Hazelton. God bless America that I am here today, and 
God bless our President and what is going on in our country 
today. I would like to start by saying steroids have been going 
on a long time. Even in the 1930's, they were being used in 
Germany for the soldiers to give them more endurance, to be 
more aggressive during wartime in World War II. Steroids has 
been on the market for a long, long time, and I have been doing 
lectures for 15 years, and it seems like the first 7 years I 
started back in the early 1990's, everybody wanted to hear how 
dangerous this drug was.
    I know Senator Biden brought this to Congress back in the 
early 1990's or late 1980's to make this a law to where it was 
a prescribed drug. I caught the last part of one of my 
associates down there about steroids being purchased over the 
Internet. Before I came here, I made a purchase of $200 of 
Anadol, Cypionate, Propionate, and these different types of 
injectable steroids. We have done nothing in the last 15 to 20 
years but put up smokescreens that we are going to stop 
steroids.
    We have professional athletes using this drug that are 
breaking records, and they are saying they are doing with 
basically what is God-given to them as a great athlete. We all 
know that the records that have been broken in the last 10 
years have been some type of enhancing drug. Now if we are 
going to use steroids, then basically we need to have two types 
of individuals or records, record books to where the guys who 
broke them back in the 1930's, 1940's, 1950's and early 1960's 
compared to the guys that have broke them now because it is not 
right that these guys did it with--the ability to break a 
record. I know when I leave here today, that I am still going 
to see these guys using them and basically not being 
disciplined, fined or anything else.
    Now I know for a fact that I tried to talk to Mr. Bud Selig 
about 3 weeks ago trying to help these other athletes that have 
been using steroids, and one of his associates said ``Well, it 
is none of your business and we will handle it on our own 
turf.'' That just tells me that these owners of professional 
teams, they don't want to hear the true stories. As I sit here 
today, I sit here with no legs.
    Mr. Coble. Mr. Hazelton, don't worry about that. Take a 
deep breath, and everybody is on your side.
    Mr. Hazelton. It is because people didn't tell me. We have 
got to do something about this drug. This drug is as bad as 
cocaine, crack, heroin and any drug on the market because it is 
a drug that when it affects your body, you don't know if it is 
going to affect you now, 6 months down the road, or 10 years 
down the road.
    Finally some of these players are becoming a front, Conseco 
admitted to using steroids. The tennis star, John McEnroe said 
he used steroids. You don't have to have a big body to be on 
steroids. Steroids enhance your performance. I had a guy when I 
did an interview a couple of weeks ago who said, ``Well, I 
drank a six-pack of beer and I could hit a softball over a 
major league fence, and I didn't use steroids.'' Doesn't mean 
because you use steroids that it is going to make you hit a 
home run any further, but it will give you the ability to be 
more aggressive, to be more powerful.
    And if you have the ability, you will hit more home runs. 
Now if we are going to make this drug presented to some of the 
athletes that have broken records, then we might as well open 
it to every athlete out there today because it is not right 
that one set of guys use it, whether it be football or baseball 
and another set that goes in there and plays the game, all the 
rules, all the regulations, gets a big payday but still isn't 
breaking that record. We know some of the guys that have hit 
home runs in the last 20 years that have broken these records, 
and they say they are not on drugs.
    Well, I know firsthand that these guys have used drugs. I 
mean when you spend your life in gymnasiums, you spend your 
life being shot up with steroids and knowing what it does to 
enhancing your performance in doing these sports, that I can 
pick somebody out just by looking at them.
    Now I spent the last 7 years having my legs amputated more 
and more and more. This is never going to go away for me. It is 
something I have to deal with everyday of my life. And it is 
just something that I think is not fair for these kids to hear 
from these athletes out there that they are doing this by the 
ability they have by just being a good athlete. If you can 
imagine laying on a surgery table like I did a month ago, not 
being put to sleep but you can smell your bone and your tissue 
being cut off your body because you used a drug that no one 
told you about, it is going to make you a little more angry 
than the normal guy because I get sick and tired of hearing 
these baseball players and these people that are head of the 
game saying they are handling it.
    They are not handling it. The only way you are going to 
handle this thing is make it for everybody. You got to say we 
are going to cut it out for Joe Blow down to whoever. That is 
the only way it is going to stop this drug. And you have to 
have fines and suspensions, and they are going to have to mean 
something because these guys are getting a slap on the hand. 
They are making $30 million. You are not going to go stop them. 
To me, that is a holiday for these guys. They take off a week 
or 2 weeks and go off in the sun and relax and come back and 
play the game and go right back on the drugs.
    Until this Committee and this country stops it, then you 
are not going to have a clean sport again. And I will sum this 
up. My father, in 1972, after he learned that I had been on 
steroids, we didn't have a lot to talk about because he had 
lost his faith in me as a person who did play sports, was a 
professional fighter and he actually died 13 years ago never 
speaking to me because of that position in my life that I 
thought I needed.
    Well, my life, I have been spending 15 years to dedicate my 
life out here to make a difference in these kids. But if I 
don't get anybody backing me up, then it is not going to 
happen. And I am the only one out there actually making a 
difference. And that is all I have to say. And it is up to you 
guys after I leave here today. And if there is media, I would 
like to say right now, I guarantee in 5 years, you will not see 
any difference than you see right here today.
    [The preparded statement of Mr. Hazelton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Coble. We thank all the witnesses, but particularly Mr. 
Hazelton, because you have been there and done that. And I 
appreciate the media's interest as well. They are indeed 
covering this. Mr. Hazelton, let me start with you, and we 
impose the 5-minute rule against us folks--if you make your 
answers fairly brief--tell us how you first became aware of the 
dangers of steroid use, Mr. Hazelton.
    Mr. Hazelton. Well, I started taking steroids after I lost 
to George Foreman in 1969 on ABC Wild World of Sports. I 
weighed 183 pounds and my manager sent me to England. And I 
came in contact with the drug called Dianabol. The reason they 
used them, it was a very high potency vitamin pill. It was okay 
to take, and I would see weight gain and size, but that is all 
I would feel. Four years down the road, I started having pains 
in the back of my leg and calf, and it was a period from 1971 
until 1980 that the leg had broken down so bad that the 
circulation was almost completely dead.
    That was the first time I knew I was taking steroids 
because the doctor in Vegas in 1977 refused to give me an 
injection. He says, you know what you are putting in your body? 
I said, no, sir. He says you are putting in a synthetic hormone 
which your body produces everyday. Everybody in here should 
have a normal amount of steroids put in their body. When you 
start injecting steroids, your body goes to the 5,000, 10,000 
times your normal amount any professional athlete that takes 
steroid, an aggressive type of steroid is going to be putting 
in their body.
    Your body just can't handle that. It is going to break down 
somewhere, whether it is your heart, your lung or your kidneys. 
Somewhere along the line, it is going to break down.
    Mr. Coble. We may have a second round, too. Mr. Sweeney, 
the products this legislation seeks to ban are widely available 
in nutrition stores, pharmacies and even over the Internet. 
Some of the manufactures have suggested that we should not ban 
these products, but instead we should make them illegal for 
anyone under the age of 18 or require better labeling of these 
products? What say you to that?
    Mr. Sweeney. The precursors and the designer steroids are 
the equivalent, Mr. Chairman, of steroids. That is their 
impact. And as Dr. Hale pointed out and the deputy director 
pointed out, whether there is some slight chemical change or 
not in the process, the effect is the same. And Congress's 
intent in passing the 94 legislation banning the over-the-
counter sales of anabolic steroids is pretty clear. There isn't 
any distinction there. There isn't anything that clouds that 
response and that intent of Congress. And effectively, what you 
have here are some manufacturers driven by greed, some 
professional athletes driven by greed circumventing the intent 
of Congress in the creation and the use and the distribution 
and promotion of these products.
    And as Mr. Hazelton pointed out, as I spoke to you earlier, 
and as you cited in the National Institute of Drug Abuse 
Statistics, this has real impact on kids. Now if you are going 
to allow it for kids and treat it like alcohol, first of all we 
know, it is difficult to enforce.
    Secondly, the availability over the counter is still there. 
And thirdly, as Mr. Hazelton has more accurately pointed out, 
the availability by other means, the Internet, is going to be 
there, and you are not going to get to the real problem. As I 
said, the impact on the developing body I got to believe is 
certainly more devastating to the mature body of an adult.
    Mr. Coble. Dr. Hale, you indicated that by the time the 
agencies are able to take actions against a specific steroid 
precursor, unscrupulous manufacturers will already have made 
minor chemical changes to the product and reintroduced it in 
the marketplace. In your opinion, is the proposed legislation 
comprehensive, A, and do you have recommendations that would 
make this legislation more effective, B?
    Dr. Hale. In answer to your questions, the answer is yes 
and no. Yes, I do believe this is a very comprehensive bill 
that will be very effective in protecting the American public. 
And at this point, I cannot recommend any substantive changes 
to this. I believe that those who have drafted this bill have 
done an excellent job. I am very pleased that you have done 
that. And I would just urge you to pass it so we can get on 
with it.
    Mr. Coble. Let me try to beat the red light here, Mr. 
Rannazzisi. Strike that. Let me recognize Mr. Scott and then we 
will have a second round. Gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Sweeney, how do you 
deal with Internet sales? Does your bill mention anything about 
that?
    Mr. Sweeney. It does not and it is a broader issue with 
greater implication than I know your Committee has really 
wrestled with over the years, but we have to take the first 
step. We have to recognize that precursors exist and the 
designer steroids exist, and we have to ban them first and 
allow that law to evolve in the other areas.
    Mr. Scott. Are there dietary supplements that are marketed 
as performance enhancers that should not be illegal?
    Mr. Sweeney. There are. And the first 2 years we introduced 
the legislation, we broadly defined the ban as precursors and 
designer steroids and because there are products that the FDA 
has pointed out to us that--protein shakes, for example, things 
of that nature, really ought not to be lumped into the same 
bunch as the precursors and as the designer steroids. We, now 
in this legislation, create two mechanisms, one the specific 
ban on specific products, and then the capacity by the DEA to 
reclassify other products as they evolve and are developed by 
some of those folks.
    And I want to reiterate what I said earlier. There are some 
manufacturers who voluntarily said we are going to get out of 
this business and we are not going to engage. And what we have 
left, Mr. Scott, are a lot of people on the fringes. I liken it 
to the methamphetamine labs that popped up over rural America. 
What you got are people scattering now trying to find ways to 
circumvent the law to create this product and sell this 
product, marketing it and directing it to kids and young 
athletes knowing that its impact is what it is and that is 
unconscionable and we need to stop that.
    Mr. Scott. Mr. Hazelton, are the steroids addictive? If 
people want to stop, can they stop?
    Mr. Hazelton. They are not on the same line as heroin or 
your harder drugs, but it becomes psychologically addictive to 
where when I was weighing 290 pounds, I thought I weighed 180. 
On the same lines as anorexia. You feel like you don't get big 
enough. Steroids have a really psychological bad side effect as 
far as mentality. You are mental, the bad moods, the 
aggressiveness. Sometimes you think you are doing something to 
where you think it is like a psychopath. I found myself, when I 
was using them, going out to nightclubs and beating the hell 
out of people just because I felt I was strong. Of course, I 
want to say other things, but I would like to ask one question 
and have someone answer it.
    Why do you need anabolic steroids? Why? Just tell me. If it 
is to get big, to compete in body building contests, fine, I 
can see it because, I mean, they use it. Professional 
wrestling, which is not a sport, it is like going to a circus, 
that is fine. But for someone that plays a professional sport, 
for God's sake, why do you need it? Tell me. Babe Ruth didn't 
use it. Mickey Mantle didn't use it. Roger Maris didn't use it. 
Willy Mays didn't use it. These guys are in history. These guys 
were great athletes.
    If someone can tell me why you need to make steroids 
allowed to be used for any reason, then I cannot walk away, but 
I will take my chair and go somewhere else. But there is not a 
reason.
    Mr. Scott. As I understand it, we are not prohibiting it, 
we are making it like a prescriptive drug where it can only be 
available under medical supervision properly.
    Mr. Hazelton. When you make this available for a doctor to 
write it--and excuse me, Congressman, it is going to go rampant 
because it is going to be just like when you get a handicapped 
sticker for your car, someone can't walk 300 yards--well, my 
patient is obese or this or that, got a bad back, what do you 
think is going to happen to steroids? As soon as you pass the 
law saying it can be written by a doctor again, they are going 
to make a field day on selling scrips. Exactly.
    Mr. Scott. Let me see what is in the bill.
    Mr. Sweeney. We categorize them as schedule 3 substances. 
And I would, just in response to Mr. Hazelton, I don't think 
there is any legitimate over-the-counter use of anabolic 
steroids.
    Mr. Scott. No legitimate over-the-counter use?
    Mr. Sweeney. Right. And Dr. Hale would probably be able to 
answer more accurately.
    Mr. Scott. I was going to ask Dr. Hale if there are 
legitimate uses?
    Dr. Hale. Yes, there are. Certain conditions, certain 
wasting diseases related to cancer, something such as that 
where this would help. There are certain other types of 
conditions. It really depends on the individual injury and the 
individual physician. I understand, Mr. Hazelton, but I do 
believe physicians in this country. In our own State of 
Virginia, you have a very strong control. I am licensed in 
Virginia. And it would be very difficult to misuse this, 
although we fully recognize that anyone can misuse this at any 
given time. This would prevent the gross overusage that is 
taking place today.
    Mr. Coble. The gentleman from Florida is recognized for 5 
minutes.
    Mr. Feeney. Thank you, Mr. Chairman. And thank you, members 
of the panel and our friend, Congressman Sweeney. I think all 
of us, certainly at the collegiate and high school level, would 
like to prohibit and proscribe all use of these performance 
enhancers, and most of us would like to see them regulated, if 
not prohibited, at the professional level. But there are two 
areas here, one is the war on drugs, which has been, at best, 
nixed in terms of its success the last several decades and then 
the general decline in what I would call sportsmanship.
    And you have these two areas, and I think Mr. Hazelton put 
it right, it is going to be very difficult to have success here 
which doesn't mean we shouldn't have to try but talk about some 
of the way we are moving in sports these days, whether it is 
parents screaming at umpires at little league, whether it is 
the intent to injure that we see increased, whether it is 
amount of money involved or sports agents dominating the news 
page, suped up, not just athletes but bats and balls and every 
other piece of equipment we can get a hand on.
    So the whole notion of what we mean by sports in America 
has been subject to some decline and we ought to be inculcating 
a spirit of athleticism in every child, not just those that are 
competing at the interscholastic ranks, but to up and down. So 
my question is to my friend, Congressman Sweeney, with respect 
to the effectiveness here, and in part to Dr. Hale, because I 
have two concerns about how we actually take an effective 
approach to the problem that has been outlined by Congressman 
Sweeney's bill. And one would have to do with definitional 
problems. We have enough problems enforcing laws against, say, 
a heroin or cocaine user, marijuana user, even when we all 
agree what the definitions are.
    I note, for example, Dr. Hale, that the drug that Mr. 
Hazelton said that he was encouraged to use is not on the list, 
at least in my understanding of the very technical terms. You 
have about 50 or 60 drugs that are now going to be categorized 
as schedule 3. And what is it, Dr. Hale, that prevents, if we 
pass this law and the manufacturer wants to comply and they 
could put together a new--the combinations are almost infinite, 
are they not? And not only are they infinite, but they have a 
very difficult challenge when you talk about performance 
enhancing drugs, which is not what this bill defines as 
illegal. The reason you have to specifically enumerate them is 
otherwise you get into caffeine, sugar, vitamins, high protein 
soft drinks, et cetera.
    So where are we going if we list 108 drugs that are 
prohibited? Isn't 109 right around the corner. And if 
Congressman Sweeney could maybe address that as a follow up 
after Dr. Hale does. I guess the other question is with respect 
to increasing the penalties at or near sports facilities. 
Doesn't this pretty much drive weight lifters and athletes who 
are training, simply drive the behavior somewhat underground? 
And do you really get what you are going after here or you just 
sort of drive the occurrence of the activities somewhere else?
    Dr. Hale, if you would.
    Dr. Hale. Thank you, Mr. Feeney, you asked a critical and 
very important question. First, let me answer your question 
about dianabol. That is a known steroid that was covered in the 
original. That is why you don't see it on the list anymore. 
What we are looking at are steroid precursors now. The actual 
known steroids are already covered. What we are looking at are 
those precursors which in the body actually move into the 
steroid.
    The answer to your second is that I would like to think 
that the next step, once we have been able to ban this easy 
access over the counter is education, just as with the drug 
program. I know that we will never get rid of everything, but 
we can certainly try to make certain that the young people in 
America at least don't have easy access using what we talked 
about as some of the other illicit drugs.
    Yes, as I read the reports from the DEA, we are making 
inroads in it. And there are others that come up. But it is 
education that is ultimately going to be the winner. USADA, we 
have been working with Scholastic Magazine to begin an intense 
education program for young grade schoolers to teach them about 
what is right and what is wrong. The instance of fair play you 
talk about, that is a real issue we face in America today. I 
wish I had a solution for it, but I do not. But I do think we 
can go the first step. And the first step along the way is 
banning the precursors, not making them easily available. As 
long as they are easily available, all the education in the 
world and everything else we do is not going to come to any 
fruition until such time as they can learn the dangers and the 
problems.
    Mr. Coble. I thank the gentleman. The gentleman from Ohio, 
Mr. Chabot. And we will have a second round.
    Mr. Chabot. Thank you, Mr. Chairman. I just had a couple of 
questions and I got here a little bit late and I apologize, and 
this may have been covered. But as far as high school athletes 
and college athletes and the pressures through competition that 
exists out there, have any of you touched on or could you touch 
on how prevalent this is, how below----
    Mr. Sweeney. The National Institute of Drug Abuse said 3 
years ago that almost 3 percent of seventh and eighth graders 
had used the substances, either the precursors and/or steroids 
or themselves and a greater percentage--and I don't recall the 
number offhand--in the high school age group had done that. 
But, Mr. Chabot, I have to reiterate the point this is about 
getting more of these products on the list as schedule 3s, 
because there is definitive science showing their impact. It is 
having real impact and it starts at the major sports level.
    And we have had great progress in the last several years 
since there has been an acknowledgment by the major sports, the 
NBA, the NFL, the NCAA, the USOC, all have joined on in support 
of this idea and all have said independent testing needs to be 
done in their sports, and there is a reason for that. It is 
because it skews the sport, but it goes beyond that. It affects 
the culture that we live in. It affects our kids. And the only 
obstacle in this process has been major league baseball, but it 
has also been the predominant sales entity of this product by 
virtue of Mark Maguire's accomplishments, by virtue of his 
acknowledgement of use, by virtue of the rumors and the 
acknowledgement of other major league players, and because 
baseball itself at first, and now I guess it is just the 
players' union really have taken an absurd, obstructionist, 
unconscionable stance in this process saying it is a privacy 
issue. They fail to recognize the impact and the messages they 
send out.
    And they fail to recognize the special privileges we have 
given them here; the public funds that are used for their 
facilities. They fail to recognize the message they are sending 
to our kids and that is, if you are going to get ahead, cheat a 
little bit and who cares what happens to you later in your life 
with your health.
    Well, Mr. Hazelton has pointed out as dramatically as 
anybody could of that impact. And so we really need to 
understand that the manufacturers of these products and the 
athletes that use them are intending to circumvent our intent 
and we ought not to let that happen anywhere.
    Mr. Chabot. What kind of effort is being made or might be 
made in the future to educate some of the athletes, especially 
at the high school and college level, as to how they might 
obtain the results they are looking for through natural food or 
working out lifting weights naturally as opposed to being 
involved with the anabolic steroids?
    Mr. Hazelton. Out of the lectures I have done, I have seen 
some of the ways they use to deter these kids from using them 
is a cassette tape, bringing their athletes into a room and 
letting them listen to the dangers of steroids. And 9 times out 
of 10, the worse thing they have on the tape is hair loss or 
problems basically with pimples, the swelling of the body and 
it never got into the part of the heart, the lungs, the liver, 
the loss of legs, the inoperable cancer. It doesn't get into 
where it is going to be something that is going to make you 
look at and say, my God, can this happen to me and they don't 
push it. It is like a joke.
    When you talk about how many kids are out there using it 
from the time I saw it in 1989 doing lectures until now, there 
is one part of the country has 73 percent of their athletes on 
the football team using steroids, 73 percent. The team was 
number one in the State. I don't want to say--I am not here to 
start downing the city or the State that was in, 73 percent. 
And I had kids calling me after I had gone there to do a 
lecture, crying wondering is this going to happen to them.
    Mr. Chabot. Was there any effort to discuss the 
alternatives to this stuff? You mentioned about the bad things 
that it can do to you. Has there been much of an effort?
    Mr. Hazelton. I am not saying anything bad about 
Washington, the school at the time couldn't find me and this 
was when I was hot on the market doing my lectures. They had 
brought someone from the FDA and someone from the pharmacy 
department here to come down there and tell the kids what the 
dangers were, what happened. And finally after I did reach the 
superintendent of the schools, he told me that Bob when they 
came in there, the kids were so bored that they spent more time 
talking, writing stuff out, drawing, but it is after you had 
left, the kids actually spent time in the classroom asking each 
other what could be done--how to stop our friend or our 
teammates from using it and what the dangers were.
    Mr. Sweeney. If I could point out quickly, but we have 
secured in the past years, seed funding for education programs 
starting in New York and Oklahoma. This was over the last 
couple of years as we were beginning the awareness here in 
Congress. And we have also, in the last week, picked up the 
scholastic in partnership for a drug free America support who 
are going to do ad campaigns. And I think Dr. Hale's group and 
the U.S. Anti-Doping folks have gotten engaged in the last 
several years in trying to get that message.
    Mr. Coble. I thank the gentleman from Ohio. And the other 
gentleman from Florida, Mr. Keller is recognized for 5 minutes.
    Mr. Keller. Thank you, Mr. Chairman. When the President of 
the United States decided to use his bully pulpit of the State 
of the Union to mention the problems with steroids and 
performance enhancing drugs, it became crystal clear to me that 
something was about to happen in Congress. Now anabolic 
steroids have been banned since 1990 both for athletes and 
nonathletes, and now we see a need to expand this list of 
banned steroids to include the over-the-counter steroid 
precursors. Whereas the popular anabolic steroid dianabol has 
been banned for quite some time, we will now be banning the 
steroid precursor andro. Now because this issue is being 
championed by the President of the United States and 
Congressman Sweeney as well as the bipartisan leadership of the 
Judiciary Committee in the House and some prominent bipartisan 
U.S. senators, I am relatively convinced that this bill will 
become law, and I will support it.
    But I want to take this to the next step and ask you some 
questions about testing, and Congressman Sweeney, I will start 
with you. I am concerned that even after we pass this, we are 
still not going to be able to rely on the honor system of 
athletes not taking this, both amateur athletes when there is a 
gold medal at stake, or an NCAA championship, and with respect 
to pro athletes, when you stand to get a bonus for being the 
MVP for hitting so many home runs. I would like someone who is 
not that familiar with how testing works, both in the 
professional sports and amateur, if you could give me an 
overview of how it works, say, with professional sports in 
terms of testing.
    Mr. Sweeney. Well, it is a great question. I think it goes 
to the root of the obstruction that we faced in this process. 
Ben Johnson is not known as the world's fastest man and gold 
medal winner in the Olympics.
    Ben Johnson is known as a disgraced athlete who cheated and 
was stripped of all of those honors all of those medals because 
he used steroids in the process.
    The USOC and the other groups I mentioned, the NCAA and the 
NFL and the NBA, have all now agreed that it is in their 
sports' interests as it relates to the integrity of those sorts 
to implement independent testing systems, random independent 
testing systems, that I think are going to have real impact on 
their sports and create real benefit in reducing the use of it.
    One of the last obstacles is Major League Baseball. What I 
would think, Mr. Chairman, and Mr. Ranking Member, and Members, 
is what you ought to do as well, is you continue to review this 
bill, is get Don Fehr and Bud Selig in here, and ask them what 
they are going to do next, because the shielding of independent 
and random testing done by the players union in particular, and 
in part, by the owners, is banned because they have got a 
collective bargaining agreement that only calls for a limited 
round of testing.
    Now, we know what happened in that limited round of 
notified tests, that 5 to 7 percent of Major League Baseball 
players tested positive, when they knew they were going to get 
tested. That is three full teams in current construct of Major 
League Baseball.
    Baseball is thumbing its nose at Congress, at the laws of 
this land. I am not so sure jurisdictionally what we can do in 
this bill, and we have struggled with this issue to require any 
kind of mandated testing. And I think folks at USADA have been 
very effective at getting these other sports entities involved 
in the process.
    But, I think that we ought to use our bully pulpit, because 
you are right. The President called in the calvary on the day 
of the State of the Union, and we are now reacting to that 
call. It is going to be passed into law in some form.
    But, we need to find a way that has an impact, with the 
recognition that this is a little bit less about pro athletes, 
and a heck of a lot about our kids.
    Mr. Keller. Thank you, Congressman Sweeney. Dr. Hale, 
Congressman Sweeney seems to be relatively comfortable, I take 
it from his testimony, with the amateur sports governing 
themselves in the appropriate testing, but at least one 
particular professional sport, major league baseball, not doing 
enough.
    What is your opinion as to the amateur sports and their 
testing procedures? Are they adequate with respect to, say, the 
Olympics and NCAA football?
    Dr. Hale. Let me just very briefly explain to the Committee 
how testing is done. As Congressman Sweeney pointed out, there 
are actually three types of testing. There is testing in 
competition, which is where Ben Johnson got caught, I happened 
to be there at that time.
    And there is testing at camps and other things. But, the 
most effective testing is the no-announced testing. For 
example, if you were an athlete in the pool, one of our doping 
control officers could walk up today and tap you and say 
Representative Keller, join me in the bathroom, I want a 
sample. Then and now. And you have to produce. If you don't 
produce it is a positive. And the punishments are very heavy.
    And I think that right now is the basis of our most 
successful testing program. That is being done by the NFL, it 
is being done by the NCAA, it is being done by all of the 
Olympic sports. And so I think these are the ways that we can 
prevent people from abusing the use of these drugs and 
medications.
    Mr. Keller. Thank you, Mr. Chairman. I yield back.
    Mr. Coble. Thank you, Mr. Keller. Mr. Rannazzisi, we have 
overlooked you but we have not abandoned you.
    Dr. Hale, in his statement, indicated that studies have 
shown that an alarmingly high percentage of dietary supplements 
contain doping substances, and they are not disclosed on the 
label.
    Assuming this statement is accurate, and I have no reason 
to doubt it, is it reasonable to assume that companies may 
still continue to manufacture these products containing steroid 
precursors, and simply continue not to list its contents 
accurately?
    If so, what can be done to combat this problem?
    Mr. Rannazzisi. Well, if the legislation passes, those 
substances become controlled substances. As controlled 
substances, those substances have to be identified properly, 
because they are going to be prescribed--if they are prescribed 
by a medical practitioner.
    So if they are under the act, they have to be labeled and 
cannot be mislabeled.
    Mr. Coble. Mr. Hazelton, in a recent Washington Times 
article, it was noted that you regularly make appearances, as 
have you told us today, at schools to address the detrimental 
health effects of steroid use.
    What sort of feedback have you received from these students 
and educators? Are most children aware of steroids and the side 
effects associated with them, or do you think that many of them 
just view this as a necessary evil to get ahead in athletics, 
so I can be drafted early and become a millionaire overnight?
    Mr. Hazelton. Basically, that was the beginning of our 
young athletes coming out of high school, junior high, even, 
taking steroids was one way to get a jump.
    Most of our young adults had no idea and they still don't 
have an idea what steroids does to their body. I have always 
had great reception, I mean the best.
    The thing I run up against in schools, they don't have the 
money. They can't afford to bring somebody in to give them a 
layout of actually how dangerous steroids really are.
    I have had a few things that we could have done a long time 
ago that would have saved a lot of money, but it seemed like it 
was something at the time wasn't important. Then, I am not 
going to say if it is important now.
    And I would like to just say one thing about testing. 
Testing, it is the most easiest thing to do is block. I know 
professional football players that would empty their bladder 
out, put a catheter back in there, and put water back up to 
their kidney so that when they did do a urine test, it would 
come up negative.
    There are certain steroids that if you drink certain 
things, that will block it. There is certain things that if 
someone knows it is going to be a test, it is very easy to do 
something 12 hours before you have the test. Now, the people 
that you send in there to say, okay, let's go in the bathroom 
and do a urine test, the test that they do, is that going to be 
automatically trustworthy?
    You know, you have to start looking at these things, 
because we have been dealing with this for a long, long time, 
and I don't know how many people that they have actually got 
using steroids, but when you have got 70 percent of 
professional athletes using steroids out there, and you have 
only busted--and this is going a big number, 50, somewhere 
along the line someone is not coming true. Something is not 
going on.
    Now, it seems to me that if you really, really wanted to 
stop steroids, I mean at least stop it on the link. You guys 
have--you have got a list, which I don't know if there are 
steroids that you are going to bust, but you guys haven't 
talked about Equipoise yet, which is one of the biggest 
steroids on the market. And that is used for race horses. You 
get it from veterinarians.
    That with Anadrol or Dianabol or Ethinate or Propinate, I 
haven't heard those drugs yet. You have got a list of steroids 
here, and these steroids are the ones that are mostly used. 
Now, you can change the name by making it something else. But I 
am sure these people here know that they consist of almost the 
same ingredients as the ones I am talking about right now. The 
only thing different is the human growth hormone.
    Mr. Coble. Let me point a final question to the sponsor of 
the bill, a rhetorical question, but I want to get it on the 
record. Some will say Government has no business here 
prohibiting these substances, but it is a matter of personal 
choice.
    What do you say, Mr. Sweeney, in response to that?
    Mr. Sweeney. Well, Mr. Chairman, the Government, the 
Congress has already acted based on definitive science in this 
area.
    And there are substantial Government interests and societal 
interests in this legislation. Mr. Hazelton, I think points 
them out as accurately and as well as anybody can. And if we 
are not engaged at this point in this process, could you 
imagine, in order to make the local high school prep football 
team, the requirements your coach is going to have for you is 
to do what in order to get that edge?
    And then 30 years down the road, what do we face as a 
society in terms of those costs ?
    Mr. Coble. I don't disagree. I was being devil's advocate. 
Just wanted it for the record. The gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. Dr. Hale, let's follow 
up with some of the questions that we were asking last.
    You indicated that wasting associated with cancer, and I 
assume AIDS would be one appropriate use for steroids, loss of 
muscle mass. What about healing generally?
    Dr. Hale. There are certain types of injuries that they do 
use steroids to increase and to prepare the body better for 
healing process, that is sometimes is used.
    Again, it is difficult to classify these in any specific 
category, because the use of steroids contains a fair amount of 
side effects. And you have to weigh, like anything in medicine, 
the side effects with the benefits. It would depend on what 
that situation is.
    But yes, there are. That is why we believe it should be a 
Category III prescription only.
    Mr. Scott. Thank you. The FDA, under our present act, has 
defined that a product is expected to be safe. What about safe 
and effective? Should we go back to that standard?
    Dr. Hale. Personally I would say yes. It would be nice if 
everything could be safe and effective. The problem is, in 
getting randomized controlled trials in a large number of 
drugs, is very, very difficult, because the effectiveness of it 
varies from individual to individual.
    Unfortunately in medicine, any conditions, some are very 
straightforward that you can treat and you know exactly how it 
responds. Others are not, depending on the individual 
variation.
    I think what happens over a period of time is once a drug 
has been approved, found to be safe, then when you evaluate it 
and its clinical usage, you find out whether it is effective. 
If it is not effective, it drops out of use very quickly. And 
the FDA has been very good in following that, because they have 
a long-term follow up of all these drugs being produced.
    Mr. Scott. Thank you. Mr. Rannazzisi, possession of 
steroids without a prescription is a Federal crime. Is that 
correct?
    Mr. Rannazzisi. Possession of the currently listed 
steroids, from the Anabolic Steroids Control Act of 1990, yes. 
That is a Federal crime if they are possessed without a 
prescription.
    Mr. Scott. Why haven't we seen more prosecutions? Or is the 
reason we aren't finding more prosecutions because they can 
find these legal precursors that do the same thing, so there is 
no reason to fool with the illegal stuff?
    Mr. Rannazzisi. I wouldn't say that there aren't 
prosecutions. As far as more prosecutions, I think the act did 
its job. I think that the prevalence of those drugs kind of 
slowly faded away. I think that is exactly why people used 
chemistry to create the precursors, steroid precursors. I think 
that is how they circumvented the act.
    You don't need those drugs if you have these drugs.
    Mr. Scott. Are the steroids controlled substances in most 
countries?
    Mr. Rannazzisi. No. Actually, most of the drugs under the 
act right now that are controlled are not controlled in other 
countries. And that is where a majority of those substances are 
being produced.
    Mr. Scott. So if somebody wanted to train in one of those 
other countries, they could have easy access to the drugs.
    I guess, how long would it be--how long after you have last 
taken them, how long for testing purposes, how long can you go 
and become clean, I guess?
    Mr. Hazelton. Over 6 to 10 weeks, sir, usually. Depends on 
how much you are using and whether you think something is going 
to come out.
    Like I said before, you have got blocking that you can do, 
one that can block within 24 hours. As far as other countries, 
I have done lectures in Germany, England, South Africa, I have 
sent articles over there. And all of these countries, they 
don't want to admit steroid use, but there is a lot of steroid 
use, especially in the Olympics before they actually go into 
the Olympics.
    And people say, well if you stop using steroids, you are 
going to lose the ability to perform whatever event. That is 
wrong. You will keep that ability to produce as much----
    Mr. Scott. So if you use the steroids and get built up, you 
can stop using the steroids and maintain that build?
    Mr. Hazelton. At least 5 to 6 months, believe it or not. We 
are talking about drugs, steroids, steroids are being made now 
in bathrooms, in sinks----
    Mr. Scott. Say that again.
    Mr. Hazelton. You can make steroids. I used steroids 15 
years ago, which I thought was anabolic steroids. I wound up 
shooting it in my hip. It wound up being Armour-All. It looked 
just like Cyclamate which you buy on the market.
    It had all of the labels on it, the box and everything. 
After shooting it about 2 minutes later, my hip had turned 
black. It covered about 12 to 18 inches. I wound up having to 
have surgery done on the hip to basically dig the infected 
tissue out of my hip.
    Now, this is what these kids are doing also, they are 
buying black market steroids and they are getting themselves in 
trouble that way. So not only buying them the legal kind, you 
have got to worry about now the bad kind.
    Mr. Coble. I thank the gentleman. Dr. Hale, I believe that 
Mr. Scott also directed that question to you. Do you want to 
weigh in on that as well?
    Dr. Hale. Thank you. It depends on the mode of 
administration, whether it is oral, whether injectable. But in 
general, most steroids are detectable per dose somewhere 
between 48 and 96 hours later, depending upon what type of 
testing you are using, whether it is excreted in the urine, and 
how it is excreted.
    So that is why--but in order to have an effect, you have to 
have continued use of it. That is why they continue to use it 
over and over, that is why no-announced testing is so 
important, because they have to use it for an extended period 
of time to get the effect.
    Mr. Scott. But we have a slight difference in testimony. 
Mr. Hazelton suggested that it was detectable weeks after the 
last use.
    Dr. Hale. We are not really different. What we are saying 
is that people continue to use it over an extended period of 
time, but if you--for example today took a single dose of one 
of these in about 96 hours without really ultra, ultra 
sensitive equipment, we would not be able to----
    Mr. Scott. If I trained in another country where this stuff 
was available and got build up to whatever--and if I stopped, 
how long would it take for the drug to be undetectable?
    Dr. Hale. About 96 hours would be the maximum, under ideal 
circumstances would be the earliest that we could detect it.
    However, remember that the effect of the drug begins to 
wear off at the same time. And that is why athletes take it 
right up as close as they can to the point of competition.
    But, I would like to clarify that it is my understanding 
that in most of Europe, especially the UK and in Australia, New 
Zealand, the anabolics are also prohibited.
    Mr. Coble. Thank you. We have been joined by the Ranking 
Member, Mr. Conyers. Does the gentleman from Michigan have 
questions, John?
    Mr. Conyers. Well, yes and no.
    But I move to strike the requisite number of words.
    Mr. Coble. Without objection.
    Mr. Conyers. Mr. Chairman, and Ranking Member Scott, I 
wanted to ask, is there anybody we know that is not supportive 
of this bill, I mean in the universe?
    Mr. Coble. Well, if the gentleman will yield, I know you 
and Bobby Scott and I are cosponsors. Mr. Feeney, are you on 
board?
    Mr. Feeney. Well, I was officially undecided coming in.
    Mr. Coble. Okay.
    Mr. Conyers. What I am leading up to----
    Mr. Feeney. But the Ranking Member is intimidating me 
strongly into a position of support.
    Mr. Conyers. This is known as the gentleman's touch.
    No, the fact of the matter is that I think that this bill 
enjoys the support of the Chairman, the Subcommittee Chairman, 
and all of us, the Ranking Member and my colleague from New 
York, who is a witness, and an original cosponsor.
    So the question really quickly comes down to, what about 
DHEA? And I would like to open that up for some friendly 
instructions on that subject. Mr. Sweeney.
    Mr. Sweeney. First, Congressman Conyers, and Ranking 
Member, you missed the earlier statements. And I said I feel a 
little bit like, you know, the fellow who has been lost in the 
woods for a number of years and has been screaming and nobody 
has heard it.
    I feel like the sunshine is coming out. And I have to say, 
I am deeply appreciative of your leadership, and your getting 
involved as you did a year ago or more on this issue.
    And I think it is with that leadership that this bill is 
going to move forward, and we are going to have some important 
changes. And one of the most significant changes in the bill, 
as it relates DSHEA, is this idea that we are now shifting the 
burden from the Government to prove that any of these products 
promote muscle growth, which is very costly, and we certainly 
don't have the resources in this extreme time to the 
manufacturing community.
    And in answer to the other question, are there people who 
oppose it, there are. There are still some of those folks in 
the manufacturing community. I think the less legitimate of the 
manufacturers, the ones on the fringes who are involved in 
this, and they are making a lot of money, and I am sure that 
they will use that influence wherever they can to try to make 
whatever changes or sprawl and delay this the best they can.
    And DHEA, another precursor. The problem with that 
precursor and that issue, and how we are trying to deal with 
the disagreement that we have, is that there are those in the 
Senate who don't agree with us on the inclusion of that product 
on this bill.
    In shifting that burden away from the Government, we think 
over some time that the folks at the DEA and FDA will be able 
to expand on to the list some products we would like to see on 
that. But, we can't get a consensus or an agreement from the 
other body on that.
    Mr. Conyers. Well, that is what conference committees are 
for. You close the doors, and in some cases, turn out the 
lights, and then, lo and behold, there is the provision in the 
bill.
    Mr. Sweeney. Mr. Conyers, I would volunteer to be on that 
conference. I would fight just as hard to have that included.
    Mr. Conyers. Does anybody else want my time? I will turn it 
back then.
    Mr. Coble. I thank the gentleman. The gentleman from 
Florida, Mr. Feeney, is recognized for 5 minutes.
    Mr. Feeney. Well, thank you. And in my last round, my 
friend, Congressman Sweeney, didn't get to quite address some 
of my questions.
    But, Dr. Hale, very quickly, is the list of steroid 
precursors that we have included in this bill, is it sufficient 
for now, and how likely is it that we are going to be back here 
changing this in a year or two, as manufacturers keep pace with 
ways around the law.
    Dr. Hale. I think the way the bill is written that it will 
prohibit that. Because of what it is talking about is 
precursors, it is not defining them by specific name, it is 
defining them by chemical type. So I don't think it will 
happen.
    However, I would be the last one, after our recent 
experience with THG and a few other steroids, to say that they 
would not be out there trying to find some ways around the 
bill. There are always people that because of the money 
involved, because of the activities involved, that will try any 
way possible to circumvent the law.
    Mr. Feeney. Well, and again, I spoke earlier about the war 
on drugs in general. And at best, it has been a mixed success. 
And some would say it has been a very expensive failure. That 
is a reasonable debate to have.
    Congressman Sweeney, you heard my concerns about the 
decline in the athletic culture and the loss of sportsmanship 
and sports in general from very early on through, you know, 
through much of what we are doing. So I invite you to comment 
on how this bill affects that. We invite you to comment on what 
the State's roles are here. We invite you to comment on the 
fact that are there coaches at the competitive levels of high 
schools and college and pro that are basically with a wink and 
a nod turning the other way, they don't want to know what is 
happening, but they really do know what is happening?
    How does this bill, if anything, get to that? I do 
appreciate that we do have the right to regulate drugs, through 
the FDA, that are legal or not, prescribed or not. I am 
certainly going to support this bill.
    But, you know, I will suggest that where there is a will, 
there is a way. That has certainly proved to be the case with 
other addictive drugs. This is America. And you know Americans, 
for example, eat until we are obese and then we go get a tummy 
tuck. This is America. If you can get a pill to enhance 
athletic performance, and if it is available, there is going to 
be a great deal of temptation and then some.
    And then finally, going back to sportsmanship as a whole, 
cheating is not just confined to sports, unfortunately. I have 
seen studies where as many as three-quarters of college 
students acknowledge that they cheat in class.
    And part of this is how we get to the whole cultural 
decline of self-responsibility and individual responsibility, 
and unfortunately, where there are benefits to taking those 
pills or in performance enhancers, legal or not, you know, my 
view is that we will be back here dealing with this problem 5 
or 10 years from now.
    Mr. Sweeney. If I can answer your question, I think the 
core of it is the question of why are we involved at all? And I 
will say this: Given the proliferation of use and the promotion 
of use by those, especially those in major league sports and 
baseball, in particular, as I pointed out a number of times 
today, but that is only because they have been the most 
obstructionist in this process, there is substantial and real 
science that says that there are side effects, that the health 
implications affect us all.
    And if we don't do something about ending the proliferation 
of use, if we don't do something about drawing definitive lines 
in what is acceptable and what is not acceptable, and in part, 
Congress tried to do that in 1994, with DSHEA, and what these 
really are, are circumventions by athletes and manufacturers. 
Because there is a lot of money and profit driven on both ends 
from it.
    Then, Congress, I guess, ought not to be involved in 
anything, because we are all going to have to pay those health 
care cost bills down the road.
    In terms of are there coaches who would circumvent the 
system? Certainly in a society in which Congress or the 
authorities that have the responsibility to regulate, 
particularly the use or in any particular area, there are going 
to be coaches. And there will be a lot of them, because it--at 
the end of the day, there is motivation for them, whether it is 
the next best job or whether it is just winning the next game.
    And I think Congress has a role in setting those kind of 
moral and ethical priorities for the rest of our society, 
especially when we know the use and the proliferation of that 
use is so detrimental to the rest of us as well, but in 
particular to our kids.
    So I guess my answer to you is, yeah, we ought to be 
involved. And this is really a response by many of us to what 
we see as a circumvention in what we intended to do back in the 
1990's.
    Mr. Coble. Thank the gentleman. The gentlelady from 
California.
    Ms. Waters. Thank you very much, Mr. Chairman. I have been 
discussing this bill with my staff. And I recognize that we are 
here to examine the abuse of steroids by professional athletes 
and the prevalence of the use of steroids and steroid 
precursors. And we cannot help but conclude that the intent of 
this bill is to try and prevented people from damaging their 
health and saving lives, particularly as it relates to young 
children.
    So it is certainly not something that one can be against. 
It is just unfortunate that we have to find ourselves 
increasingly legislating in every conceivable area. This week 
alone, in addition to this issue, we have had to deal with the 
Janet Jackson issue of exposure in some ways that are 
considered, I guess indecent and other issues that I just never 
thought we would have to deal with as legislators in this body.
    However, I suppose that we find that the more sophisticated 
we get, the more complicated we get. The more advanced we 
become, technologically and otherwise, the more problems are 
created. So there are a lot of questions that one could ask, 
but the bottom line is, basically whether or not we are going 
to support legislation that will create stiffer penalties and 
discourage the use of these performance-enhancing drugs that 
could cause damage and loss of life.
    There is not much more to say. Thank you.
    Mr. Coble. I thank the gentlewoman.
    We very much appreciate you all being here, Mr. Hazelton, 
in particular, sharing your personal experiences with us and 
your courageous role, when you visit schools across the country 
I wish you well. I thank you all. The Subcommittee appreciates 
the contribution today. This conclude the legislative hearing 
on H.R. 3866, the ``Anabolic Steroid Control Act of 2004.''
    The record will remain open. I recognize the gentleman from 
Virginia.
    Mr. Scott. Mr. Chairman, reference was made to major league 
baseball. I would ask unanimous consent that a letter from 
Donald Fehr, the Major League Baseball Players Association 
Director, saying that if Congress chooses to expand the 
definition of Schedule III, in order to cover certain steroid 
precursors, we would not only support such a decision, but also 
would automatically expand our own testing program, jointly 
administered by the clubs to cover such substances; and also a 
letter from the American Medical Association in support of the 
legislation.
    Mr. Coble. Without objection, it will be received. And I 
want to thank those in the audience who stayed for the hearing. 
I want to thank the media for having covered this. Mr. 
Hazelton.
    Mr. Hazelton. I have one question. It might be a long 
question. Right now, we are looking at this going to some type 
of law being passed and educating our youth out there today.
    First, I would like to say, what time period are we looking 
at to start educating our kids? Second thing is, I would like 
to be totally involved in this, considering I am the one that 
started actually the lecture tour on steroids and to have a 
major input.
    Mr. Coble. Mr. Hazelton, to answer your first question, 
what time period, you are looking at a man who does not have 
the wisdom of King Solomon. So I can't answer that one. As far 
as your second question, I direct your attention to the primary 
sponsor of the bill.
    I think Mr. Sweeney would be glad to work with you to that 
end.
    Mr. Sweeney. Absolutely, Mr. Chairman. As I mentioned 
earlier, we got money in the approps process last year to begin 
a program. I am hopeful with the passage of this legislation, 
the moving forward, we are going to be able to do even better.
    Mr. Coble. In response to your first question, didn't mean 
that to be a cute answer. I would say in a reasonable time. It 
would be my belief that this very well may be enacted into law.
    This concludes the hearing. I thank you all for your 
cooperation. The Subcommittee stands adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
